USCA11 Case: 20-12965

Date Filed: 11/09/2020

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12965-E

DARRYL L. WILLIAMS,
Plaintiff - Appellant,
versus
COMMISSIONER OF SOCIAL SECURITY,
NANCY A. BERRYHILL,
private capacity,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Darryl L. Williams failed to pay the filing and
docketing fees to the district court, or alternatively, file a motion to proceed in forma pauperis in
this court within the time fixed by the rules, effective November 09, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Gloria M. Powell, E, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 1 of 9 PagelD 28

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

DARRYL L. WILLIAMS
Plaintiff,
v.

Case No. 8:20-cv-574-T-30CPT

ANDREW M. SAUL,
Commissioner of Social Security,
and NANCY A. BERRYHILL,
in her private capacity,
Defendants.

REPORT AND RECOMMENDATION
This cause is before me for consideration of two pleadings filed on behalf of
Plaintiff Darryl Williams: (1) a “Writ to Proceed in District Court Without Prepaying
Fees or Costs,” which I construe as a motion to proceed in forma pauperis pursuant to
28 U.S.C. § 1915 (IFP Motion) (Doc. 2); and (2) a document entitled “Grievances for
violation of Constitutional Rights; International Covenant on Civil and Political
Right(s) and Treaty Law” (Grievances Filing) (Doc. I).1 For the reasons discussed

Both ofthese pleadings are signed by Loraye Blackeagle, Williams’s self-described authorized
representative and a Moorish American National. (Docs. 1, 2). For ease of reference, I refer
to these submissions as Williams’s filings.
i

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 2 of 9 PagelD 29

below, I respectfully recommend that Williams’s IFP Motion be denied and that this
action be dismissed.
I.
While not entirely clear, it appears Williams seeks monetary and injunctive
relief pursuant to 42 U.S.C. § 1983 and Bivens y. Six Unknown Named Agents of Fed.
Bureau ofNarcotics, 403 U.S. 388 (1971) against Defendants Andrew Saul in his official
capacity as the Commissioner of the Social Security Administration (SSA) and Nancy
Berryhill in her individual capacity.2 (Doc. 1). In support of his requests for relief,
Williams asserts, among other things, that he is a “non-resident alien,” that he has a
right to self-determination, that he did not consent to participating in the Social
Security program, and that he is entitled to be reimbursed for the “unused portions”
of the Social Security “premiums” he involuntarily paid to the SSA through his
“compelled participation in the program.” Id. Williams further avers that, when he
sent a letter to the SSA in January 2019 insisting that he be allowed to withdraw from
the Social Security program, the SSA refused to accede to his demands, thereby
violating his rights. Id.
In support of his claim of indigency, Williams’s IFP Motion states that he has
no wages, expenses, dependents, debts, or obligations, and that his only asset is a “1
troy ounce .999 silver coin . . . valued at $1,068.00 . . . .” (Doc. 2).

2 Nancy Berryhill is the former Acting Commissioner of the SSA.
2

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 3 of 9 PagelD 30

II.
Pursuant to 28 U.S.C. § 1915, a district court “may authorize the
commencement, prosecution or defense of any suit, action or proceeding, civil or
criminal, or appeal therein, without prepayment of fees or security therefor” upon a
showing of indigency by affidavit. 28 U.S.C. § 1915(a)(1). The court has “wide
discretion” to grant or deny an application to proceed in forma pauperis. Martinez v.
KristiKleaners, Inc., 364 F.3d 1305, 1306-07 (11th Cir. 2004) (citation omitted). While
such an application “need not show that the litigant is absolutely destitute,” it must
indicate “that the litigant, because of his poverty, is unable to pay for the court fees
and costs, and to support and provide necessities for himself and his dependents.” Id.
(citing Adkins v. E.I. Dupont de Nemours & Co., 335 U.S. 331, 338-40 (1948) (internal
quotation marks omitted)).
When an application to proceed in forma pauperis is filed, the district court must
additionally review the case and dismiss the complaint sua sponte if it determines that
the action is frivolous or malicious, fails to state a claim upon which relief may be
granted, or seeks monetary relief against a defendant who is immune from such relief.
28 U.S.C. § 1915(e)(2)(B).
Dismissal for failure to state a claim in this context is governed by the same
standard as dismissal under Rule 12(b)(6) of the Federal Rules of Civil Procedure.
Bravo v. Loor-Tuarez, 727 F. App’x 572, 575 (11th Cir. 2018) (citation omitted).3 As

3 Unpublished opinions are not considered binding precedent but may be cited as persuasive
authority. 11th Cir. R. 36-2.
3

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 4 of 9 PagelD 31

such, “[t]o avoid dismissal, the ‘complaint must contain sufficient factual matter . . .
to state a claim to relief that is plausible on its face.’” Gates v. Khokhar, 884 F.3d 1290,
1296 (11th Cir. 2018) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)), petition for
cert, denied, 139 S. Ct. 807 (Jan. 7, 2019). “A complaint is plausible on its face when it
contains sufficient facts to support a reasonable inference that the defendant is liable
for the misconduct alleged.” Id. The plausibility standard requires “more than a sheer
possibility that a defendant has acted unlawfully.” Franklin v. Curry, 738 F.3d 1246,
1251 (11th Cir. 2013) (quoting Iqbal, 556 U.S. at 678).
In evaluating a plaintiffs complaint.under this standard, the court must accept
all well-pleaded factual allegations as true and construe them in the light most
favorable to the plaintiff. Jara v. Nunez, 878 F.3d 1268, 1271-72 (11th Cir. 2018)
(citation omitted). The court, however, “afford[s] no presumption of truth to legal
conclusions and recitations of the basic elements of a cause of action.” Franklin, 738
F.3d at 1248 n.l (citations omitted).
In addition, the Federal Rules of Civil Procedure provide that a court must
dismiss an action “[i]f the court determines at any time that it lacks subject-matter
jurisdiction.” Fed. R. Civ. P. 12(h)(3). Indeed, federal courts “are obligated to inquire
into subject-matter jurisdiction sua sponte whenever it may be lacking.”

Cadet v.

Bulger, 377 F.3d 1173, 1179 (11th Cir. 2004) (citation and quotation omitted); see also
Univ. ofS. Ala. v. Am. Tobacco Co., 168 F.3d405,410 (11th Cir. 1999) (“[A] court should
inquire into whether it has subjectf-]matter jurisdiction at the earliest possible stage in
the proceedings.”).
4

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 5 of 9 PagelD 32

Finally, although pro se pleadings are to be construed liberally, a district court
is not to serve as de facto counsel for a pro se litigant, nor is it to “rewrite an otherwise
deficient pleading in order to sustain an action.” GJR Invs., Inc. v. Cty. of Escambia,
Fla., 132 F.3d 1359, 1369 (11th Cir. 1998), overruled in part on other grounds as recognized
in Randall v. Scott, 610 F.3d 701, 709 (11th Cir. 2010) (citation omitted).
III.
Williams’s IFP Motion and Grievances Filing suffer from a threshold infirmity
insofar as they are signed by Blackeagle, Williams’s purported “authorized
representative.” Blackeagle is not a member of the Florida Bar, and there is nothing
in the signature block that would suggest he or she is a licensed attorney. Unless
sanctioned to practice law in this state, Blackeagle is not permitted to represent other
individuals or entities in this Court. The Middle District of Florida’s Local Rules, in
fact, provide that: (1) “[n]o person shall be permitted to appear or be heard as counsel
for another in any proceeding in this Court unless first admitted to practice in the Court
pursuant to this rule;” and (2) “[o]nly those persons who are members in good standing
of the Florida Bar shall be eligible for general admission to the bar of the Court.” M.D.
Fla. R. 2.01(a), (b); see also Class v. U.S. Bank Nat'l Ass'n, 734 F. App’x 634, 636 (11th
Cir. 2018) (citing M.D. Fla. R. 2.01 and 28 U.S.C. § 1654, and explaining that
“[individual parties in federal court ‘may plead and conduct their own cases
personally or by counsel”’ only); Wheat v. United States, 486 U.S. 153, 159 (1988)
(noting that “an advocate who is not a member of the bar may not represent clients
(other than himself) in court”).
5

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 6 of 9 PagelD 33

In addition to this threshold defect, Williams’s Grievances Filing—which
echoes themes typically found in “sovereign citizen” type pleadings—is largely nonsensical and incoherent.

While the filing suggests Williams does not wish to

participate in the Social Security program or pay Social Security taxes, it fails to state
a cognizable claim for relief. See Charlotte v. Hanson, 433 F. App’x 660, 661 (10th Cir.
2011) (rejecting the sovereign citizen theory as having no conceivable validity in
American law); Tsidhqiyah El v. US Sec'y of State, 2018 WL 6621371, at *1 (M.D. Fla.
Sept. 10, 2018), report and recommendation adopted sub nom. Geysi Tsidhqiyah EL v. US
Sec'y of State, 2018 WL 5807507 (M.D. Fla. Nov. 6, 2018) (finding that “Moorish
National” complaint was “incomprehensible” and ”fail[edj to state any valid claim for
relief’); Leotie v. Bayview Loan Servicing LLC, 2019 WL 1225178, at *2 (N.D. Ga. Jan.
18, 2019), report and recommendation adopted, 2019 WL 1219350 (N.D. Ga. Feb. 7
2019) (finding that sovereign-citizen type complaint “wholly fails to plausibly
demonstrate entitlement to relief under any of the purported legal authority cited
therein”); Fullard v. Maryland, 2015 WL 1517393; at *2 (D. Md. Mar. 31, 2015)
(dismissing complaint based on theories propounded by sovereign citizens because
complaint did “do not raise claims involving violation of the Constitution or laws or
treaties of the United States”).
Indeed, Williams’s allegations are so baseless that they meet the frivolity
standard under section 1915(e)(2)(B)(i). See 28 U.S.C. § 1915(e)(2)(B)(i) (requiring
court to dismiss actions deemed “frivolous”); Miller v. Donald, 541 F.3d 1091, 1100
(11th Cir. 2008) (observing that a claim is frivolous under section 1915(e)(2)(B)(i) “if
6

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 7 of 9 PagelD 34

it ‘lacks an arguable basis either in law or in fact’”) (quoting Neitzke v. Williams, 490
U.S. 319, 327 (1989)). I note in this regard that the “sovereign citizen” type theories
upon which Williams appears to rely have been roundly rejected as frivolous in this
District and elsewhere. See, e.g., Patten v. LaClair, 2019 WL 7500467, at *2 (M.D. Fla.
Dec. 12, 2019), report and recommendation adopted, 2020 WL 94571 (M.D. Fla. Jan. 8
2020) (citing Mitchell v. Vesely, 2017 WL 11049094, *1 (M.D. Fla. Aug. 23, 2017))
(explaining that the arguments advanced by “Moorish National” plaintiff “appear
similar to the sovereign citizen arguments that courts have routinely dismissed as
frivolous”); McKenna v. Obama, 2016 WL 5213940, at *1 (N.D. Fla. Aug. 19, 2016),
report and recommendation adopted, 2016 WL 5110487 (N.D. Fla. Sept. 20, 2016)
(collecting cases on dismissal of sovereign citizen type complaints as frivolous); Young
v. PNC Bank, N.A., 2018 WL 1251920, at *2 (N.D. Fla. Mar. 12, 2018) (describing
“[s]o-called sovereign citizens” as those that believe “they are not subject to
government authority and employ various tactics in an attempt to, among other things,
avoid paying taxes,” and noting that “[tjheir arguments and outlandish legal theories
have been consistently rejected”) (internal citations, quotation marks, and emphasis
omitted).
Under these circumstances, dismissal with leave to amend would not be
appropriate. In arriving at this conclusion, I am mindful that a pro se plaintiff must
ordinarily be given at least one chance to amend his complaint where a more carefully
drafted complaint might state a claim. Carter v. HSBCMortg. Serv., 622 F. App’x 783,
786 (11th Cir. 2015) (quoting Bank v. Pitt, 928 F.2d 1108, 1112 (11th Cir. 1991),
7

Case 8:20-cv-00574-JSM-CPT

Document 4

Filed 04/15/2020

Page 8 of 9 PagelD 35

overruled in part by Wagner v. Daewoo Heavy Indus. Am. Corp., 314 F.3d 541, 542 (Uth
Cir. 2002)). A district court, however, is not required to grant leave to amend if an
amendment would prove futile. See Cockrell v. Sparks, 510 F.3d 1307, 1310 (11th Cir.
2007). In this case, granting Williams leave to amend his Grievances Filing would be
pointless. See Henry v. Fernandez-Rundle, 773 F. App’x 596, 597-98 & n.3 (11th Cir.
2019) (affirming dismissal of sovereign citizen type complaint and agreeing with
district court that leave to amend would be futile); Patten, 2019 WL 7500467, at *2
(finding plaintiff should not be granted leave to amend where arguments in his
complaint were similar to those made by sovereign citizens) (citing cases).
IV.
For the reasons outlined above, I recommend that the Court:
1.

Deny Williams’s request to proceed in forma pauperis (Doc. 2);

2.

Dismiss Williams’s “Grievances for violation of Constitutional Rights;

International Covenant on Civil and Political Right(s) and Treaty Law” (Doc. 1); and
3.

Direct the Clerk of Court to terminate any pending motions and close

the case.
Respectfully submitted this 15th day of April 2020.

HONORABLE CHRISTOPHER P. TU1TE
United States Magistrate Judge

8

Case 8:20-cv-00574-JSM-CPT

Document 5

Filed 04/30/2020

Page 1 of 2 PagelD 37

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
DARRYL L. WILLIAMS,
Plaintiff,
v.

Case No: 8:20-cv-574-T-30CPT

ANDREW M. SAUL,
Commissioner of Social Security,
and NANCY A. BERRYHILL,
in her private capacity,
Defendants.

ORDER
THIS CAUSE came on for consideration upon the Report and Recommendation
submitted by Magistrate Judge Christopher P. Tuite (Dkt. 4). The Court notes that neither
party filed written objections to the Report and Recommendation and the time for filing
such objections has elapsed.
After careful consideration of the Report and Recommendation of the Magistrate
Judge in conjunction with an independent examination of the file, the Court is of the
opinion that the Magistrate Judge's Report and Recommendation should be adopted,
confirmed, and approved in all respects.
ACCORDINGLY, it is therefore, ORDERED AND ADJUDGED:
1.

The Report and Recommendation (Dkt. 4) of the Magistrate Judge is
adopted, confirmed, and approved in all respects and is made a part of this

*,

Case 8:20-cv-00574-JSM-CPT

Document 5

Filed 04/30/2020

Page 2 of 2 PagelD 38

i.*'

order for all respects and is made a part of this order for all purposes,
including appellate review.
2.

Plaintiff s request to proceed in forma pauperis (Dkt. 2) is denied.

3.

All pending motions, if any, are denied as moot.

4.

The Clerk is directed to close this case.

DONE and ORDERED in Tampa, Florida, this 30th day of April, 2020.

via- /
JX\ti£ S. MOODY, JR.
& U
UNITED STATES DISTRICT JUDGE
Copies Furnished To:
Counsel/Parties of Record

2

Case 8:20-cv-00574-JSM-CPT

Document 8

Filed 06/01/2020

Page 1 of 2 PagelD 55

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
DARRYL L. WILLIAMS
Plaintiff,
v.

Case No: 8:20-cv-574-T-30CPT

ANDREW M. SAUL,
Commissioner of Social Security,
and NANCY A. BERR YH1LL,’
in her private capacity,
Defendants.

ORDER
THIS CAUSE came on for consideration upon Pro Se Plaintiff Darryl L. Williams’s
Motion to Correct (Dkt. 7). Plaintiff requests that the Court consider his Objection to the
Magistrate Judge’s Report and Recommendation, which he filed after the Court adopted
the Report and Recommendation.

The Court has reviewed Plaintiffs Objection but

concludes that the Objection is without merit. As the Magistrate Judge pointed out in his
Report and Recommendation, Plaintiffs complaint is frivolous.

To summarize,

Williams’s “Grievances” Filing—which echoes themes typically found in “sovereign
citizen” type pleadings—is largely non-sensical and incoherent. While the filing suggests
Williams does not wish to participate in the Social Security program or pay Social Security
taxes, it fails to state a cognizable claim for relief.

>

Case 8:20-cv-00574-JSM-CPT

Documents

Filed 06/01/2020

Page 2 of 2 PagelD 56

ACCORDINGLY, it is therefore, ORDERED AND ADJUDGED:
1.

Pro Se Plaintiff Darryl L. Williams’s Motion to Correct (Dkt. 7) is denied.

DONE and ORDERED in Tampa, Florida, this June 1, 2020.

h

*
JAA&S S, MOODY, JR.
UNITED STATES DISTRICT JUDGE

Conies Eurnlshcd To:
Counsel/Parties of Record

2

Case 8:20-cv-00574-JSM-CPT

Document 13

Filed 10/05/2020

Page 1 of 2 PagelD 197

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
DARRYL L. WILLIAMS,
Plaintiff,
v.

Case No: 8:20-cv-574-T-30CPT

ANDREW M. SAUL,
Commissioner of Social Security, and
NANCY A. BERRYHILL,
in her private capacity,

i

Defendants.

ORDER
THIS CAUSE came on for consideration upon the Report and Recommendation
submitted by Magistrate Judge Christopher P. Tuite (Dkt. 12).

The Court notes that

neither party filed written objections to the Report and Recommendation and the time for
filing such objections has elapsed.
After careful consideration of the Report and Recommendation of the Magistrate
Judge in conjunction with an independent examination of the file, the Court is of the
opinion that the Magistrate Judge’s Report and Recommendation should be adopted,
confirmed, and approved in all respects.
ACCORDINGLY, it is therefore, ORDERED AND ADJUDGED:
1.

The Report and Recommendation (Dkt. 12) of the Magistrate Judge is
adopted, confirmed, and approved in all respects and is made a part of this
order for all purposes, including appellate review.

f

Case 8:20-cv-00574-JSM-CPT

2.
3.

Document 13

Filed 10/05/2020

Page 2 of 2 PagelD 198

Plaintiffs request to appeal in forma pauperis (Dkt. 11) is DENIED.
The Clerk of Court is directed to notify the Court of Appeals of its ruling in
accordance with Rule 24(a)(4) of the Federal Rules of Appellate Procedure.

DONE and ORDERED in Tampa, Florida, this 5th day of October, 2020.

jay(g£ s MOODY, JR.
TNITED STATES DISTRICT JUDGE

Copies Furnished To:
Counsel/Parties of Record
\

2

